OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UGANDA’S
IMPLEMENTATION OF THE
PRESIDENT’S MALARIA
INITIATIVE
AUDIT REPORT NO. 4-617-08-004-P
April 10, 2008




PRETORIA, SOUTH AFRICA
Office of Inspector General


April 10, 2008

MEMORANDUM

TO:                  USAID/Uganda Mission Director, Margot Ellis

FROM:                Acting Regional Inspector General/Pretoria, James C. Charlifue /s/

SUBJECT:             Audit of USAID/Uganda’s Implementation of the President’s Malaria
                     Initiative (Report No. 4-617-08-004-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments in their entirety as appendix II.

The report includes 13 recommendations to strengthen USAID/Uganda’s implementation
of the President’s Malaria Initiative. In response to the draft report, the mission
concurred with 10 recommendations, and has issued revised policies and procedures for
final action on recommendation nos. 5, 8, and 13. For recommendation nos. 2, 3, 4, 9,
10, 11, and 12, a management decision has been reached. Please provide USAID’s
Office of Audit, Performance, and Compliance Division (M/CFO/APC) with the necessary
documentation demonstrating that final action has been taken on these
recommendations.

A management decision has not been reached on recommendation nos. 1, 6, and 7.
Please provide my office written notice within 30 days of any additional information
related to the actions planned or taken to implement these recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius St.
Box 43 Groenkloof
0027 Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Retreatment Insecticide Stored
     With Drugs ................................................................................................................. 5

     Retreatment Insecticide Expired ................................................................................. 6

     Performance Management Plan
     Was Not Updated or Approved .................................................................................. 7

     Site Visits Were Not Conducted ................................................................................. 8

     Data Quality Assessments Were
     Not Completed ........................................................................................................... 9

     Net Distribution Indicator Was
     Incorrectly Defined and Reported ............................................................................. 10

     Net Distribution Results Were Not
     Always Accurate and Supported .............................................................................. 12

     Lack of Inventory Records and
     Controls .................................................................................................................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 20
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether
selected activities of USAID/Uganda under the President’s Malaria Initiative (PMI) were
achieving planned results and what was the impact. PMI was launched by the
Administration in June 2005 with a goal of reducing malaria-related deaths in 15 target
countries in Africa. This 5-year, $1.2 billion initiative intends to reach 85 percent of the
most vulnerable people (pregnant women and children under age 5) through prevention
and treatment. USAID leads the initiative with assistance from numerous other
organizations. (See page 2).

The audit found significant issues in that insecticide was stored with drugs and
insecticide packages had expired before they could be used (see pages 5 and 6). In
addition, while some progress was reported toward achieving results, the quality of the
data to support results needs improvement. The audit found an incomplete performance
management plan, lack of project site visits, problems with data quality, and lack of
inventory records. (See pages 7–15).

The audit also was unable to determine the impact of USAID/Uganda’s PMI program at
a higher level. In two districts in which PMI interventions took place, one study indicated
a reduction in malaria cases, while a study in a second district indicated no change in
reported cases. In both studies, however, it is unknown whether the results can be
attributed to PMI interventions or other international donor interventions. It is also
unknown whether these results are representative of the entire districts. (See page 4)

Although it appears progress was made in fiscal year 2006 1 in expanding the preexisting
program into the current PMI program—which covers bed net distribution, indoor
residual spraying, intermittent preventive treatment, and artemisinin-based combination
therapy drugs—this report includes 13 recommendations to improve USAID/Uganda’s
PMI program. Recommended actions are summarized as follows: (1) segregate
storage of drugs and retreatment insecticide 2 and test for contamination; (2) protect,
safely collect, and dispose of expired retreatment insecticide; (3) manage the use and
storage of bed net retreatment insecticide packages to ensure that packages are used
prior to expiration; (4) complete an approved performance management plan; (5)
develop and implement a plan to conduct site visits; (6) perform data quality
assessments on all performance indicators; (7) assess the performance indicator for bed
net distribution and establish procedures to ensure more meaningful reporting; (8)
provide training to partners on how to properly record and report bed net distribution
results; and (9) implement adequate commodity inventory controls. (See pages 5 to 15.)

In response to the draft report, the mission concurred with 10 recommendations—
issuing revised policies and procedures for final action for three recommendations, and
taking sufficient actions for management decision on seven recommendations. A
management decision has not been reached on three recommendations.
Management’s comments are included in their entirety in appendix II.

1
 The report covered PMI activities for fiscal year 2006.
2
  Retreatment insecticide is used to treat old bed nets with insecticide to improve their effectiveness in
repelling and killing mosquitoes that land on them.


                                                                                                             1
BACKGROUND
On June 30, 2005, President George W. Bush launched the President’s Malaria Initiative
(PMI) with a goal of reducing malaria-related deaths by 50 percent in 15 target countries
in Africa by the end of 2010. The initiative’s goal is to reach 85 percent of the most
vulnerable people (pregnant women and children under age 5) through prevention and
treatment. PMI is a 5-year, $1.2 billion program that began in 2006 in Angola, Tanzania,
and Uganda. Four countries were added in 2007, and eight more countries are
beginning implementation in 2008. 3 USAID leads PMI with assistance from the U.S.
Centers for Disease Control and Prevention (CDC), host country governments,
international partners, nongovernmental organizations, faith-based and community
groups, and the private sector. From the beginning of the PMI program, USAID/Uganda
has involved numerous implementing partners, such as various Ugandan governmental
organizations and international donors, including the Global Fund to Fight AIDS,
Tuberculosis, and Malaria, in designing the program to address Uganda’s needs. The
CDC was also scheduled to be a partner with PMI beginning in fiscal year 2007.

USAID/Uganda’s key program areas for the prevention and treatment of malaria—as
published in the first annual report for the entire PMI program—are as follows:

     •   Insecticide-treated bed nets: Insecticide-treated bed nets are made available to
         targeted populations through the subsidized net program in which retailers are
         subsidized for each sale, the private-sector net programs in which retailers are
         supported through social marketing, and the net retreatment program in which
         nets are re-treated with insecticide.
     •   Indoor residual spraying: Insecticide is sprayed on the interior walls of houses to
         interrupt malaria transmission by killing mosquitoes.
     •   Intermittent preventive treatment: Pregnant women are treated with at least two
         doses of sulfadoxine-pyrimethamine, which prevents or attenuates malaria, as
         well as anemia and low birth weight. Training and supervision of health workers
         have been provided under PMI.
     •   Artemisinin-based 4 combination therapy drugs: PMI purchases these drugs,
         which are the most effective and fast-acting products available for the treatment
         of malaria. PMI also establishes support systems for distributing these drugs
         and training health care workers in their use.

Malaria is endemic in 95 percent of Uganda and represents the country’s leading cause
of illness and death, according to the Ugandan Ministry of Health. In 2003, the Ministry
of Health reported that malaria accounted for up to 40 percent of outpatient care visits
and 25 percent of hospital admissions. Nearly half of hospital inpatient deaths among
children under 5 years of age are due to malaria.

In fiscal year 2006, USAID/Uganda reported that $9.5 million was obligated for PMI. For
fiscal year 2007, the mission reported that this figure increased to $21.5 million.


3
  These countries are Malawi, Mozambique, Rwanda, Senegal, Benin, Ethiopia, Ghana, Kenya, Liberia,
Madagascar, Mali, and Zambia.
4
  Artemisinin is an antimalarial drug derived from the plant Artemisia annua.


                                                                                                     2
AUDIT OBJECTIVE
The Regional Inspector General/Pretoria conducted this audit at USAID/Uganda as part
of the Office of Inspector General’s annual audit plan to answer the following question:

   •   Did USAID/Uganda’s President’s Malaria Initiative activities achieve their planned
       results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS
The audit found significant issues in that insecticide was stored with drugs and
retreatment insecticide had expired before it could be used. In addition, although some
progress was reported under the President’s Malaria Initiative (PMI) toward achieving
results, the quality of the data to support results needed improvement. USAID/Uganda
appears to have made progress in fiscal year 2006 in expanding the preexisting malaria
program into the current PMI program in the areas of (1) bed net distribution, (2) indoor
residual spraying, (3) intermittent preventive treatment, and (4) artemisinin-based
combination therapy drugs.

Specifically, while instituting an indoor residual spaying program for the first time, the
mission expanded the insecticide-treated bed net distribution program to include the
retreatment of existing nets. It also replaced the older, less effective antimalarial drug
program with new artemisinin-based combination therapy drugs, in addition to
introducing an intermittent preventive treatment program under which health workers are
trained.

The audit was unable, however, to determine the impact of USAID/Uganda’s PMI
program at a higher level for the following reasons:

   •   In the Kabale District, in which USAID/Uganda conducted its indoor residual
       spraying program, one independent study indicated a reduction in malaria cases
       in one Ministry of Health facility. However, it is uncertain whether this result can
       be attributed to the PMI or whether it is the result of other international donor
       interventions. Additionally, it is unknown what occurred at other Ministry of
       Health units in the district over the same period and whether this reduction is
       representative of the district.

   •   In the Bushenyi District, in which USAID/Uganda conducted bed net distributions
       and other interventions, one independent study found no significant change in
       both inpatient and outpatient malaria cases for children under 5 years of age in
       two Ministry of Health facilities. Again, these two hospitals may not be
       representative of the entire district. It is also not possible to directly attribute
       these results to PMI interventions or other donor interventions.

The audit found that the mission needs to strengthen internal control, enhance
management oversight, and improve data quality and reliability. An effective response
will include (1) segregating the storage of drugs and insecticide and testing drugs for
contamination, (2) improving insecticide management to avoid the expiration of stock, (3)
approving the performance management plan (PMP), (4) planning and conducting site
visits, (5) completing data quality assessments, (6) reassessing the bed net distribution
performance indicator and establishing procedures to help ensure more meaningful
reporting, (7) improving partners’ reporting of bed net distribution results, and (8)
improving inventory record keeping and controls. These areas are discussed below.




                                                                                         4
Retreatment Insecticide
Stored With Drugs
Summary: Contrary to accepted guidance, retreatment insecticide was stored with
drugs at service provider facilities. This practice could contaminate drug supplies. It
occurred because of a lack of technical guidance to service providers, as well as a lack
of site visits.

Most insecticides are chemicals that are used to eradicate pests. They may also harm
other organisms, and most are poisonous to humans. In fact, the World Health
Organization (WHO) estimated that one million people are affected by insecticide
poisoning every year and that 20,000 die as a result of being unaware of the risks
involved in handling insecticides. Considering their toxicity, it is not surprising that a
variety of guidance requires that insecticides be stored separately from goods that might
be ingested by people. For example, the Pesticide Storage and Stock Control Manual
issued by the Food and Agriculture Organization of the United Nations unequivocally
states that insecticide stores should contain only insecticides. Similarly, WHO guidance
addressing safety measures for insecticide use states that insecticides should be kept
away from food and medicine, as well as from clothing, children, and animals. Finally,
guidance from the International Programme on Chemical Safety notes specifically that
the ingredients in some of the insecticides used in the mission’s program should be
stored in a locked storeroom away from feed, foodstuffs, children, and unauthorized
personnel.

Despite the risks, in the three districts sampled—Ibanda, Kiruhura, and Mbarara—
retreatment insecticide was stored alongside of drugs, such as antibiotics, and other
medical supplies in the Ministry of Health storage facilities prior to distribution to
retreatment teams. This practice is potentially dangerous and could result in the cross-
contamination of the drugs and medical supplies in the storeroom.

This storage practice occurred because Ministry of Health employees were unaware of
the dangers associated with storing insecticide and medical supplies in the same
storeroom. Moreover, these employees stated that they had not received any guidance
from either USAID or the implementing partner on how to store the insecticide properly.
An additional contributory cause was the lack of site visits on the part of USAID and the
implementing partner, which could have identified and corrected the practice. To
address this situation, this audit makes the following recommendations.

   Recommendation No. 1: We recommend that USAID/Uganda request that the
   Ministry of Health (a) immediately separate stocks of insecticide and
   medicine/medical supplies and (b) store such stock in separate facilities.

   Recommendation No. 2: We recommend that USAID/Uganda request that the
   Ministry of Health (a) test the medicine and medical supplies that had been
   stored with insecticide for contamination and (b) destroy medicine and medical
   supplies found to be contaminated.

   Recommendation No. 3: We recommend that USAID/Uganda develop a plan,
   with milestones, to provide training to all service providers on how to properly
   store retreatment insecticide prior to distribution.


                                                                                        5
Retreatment Insecticide Expired
Summary:        Contrary to efficient management practices, significant numbers of
retreatment insecticide packages expired before they could be used to re-treat bed nets.
This occurred as a result of weak monitoring controls, which included the lack of site
visits. Aside from the nonavailability and cost of the expired insecticide, proper disposal
will incur additional costs.

Significant numbers of retreatment insecticide packages expired before they could be
used in re-treating bed nets. In a sample of the three districts of Ibanda, Kiruhura, and
Mbarara, approximately 21,000 net retreatment packages were expired out of a total of
59,000 distributed. This resulted in two distinct problems: (1) the cost associated with
the loss of these retreatment packages and (2) the additional cost to properly dispose of
the expired packages. USAID/Uganda’s Pesticide Evaluation Report and Safer Use
Action Plan calls for all appropriate efforts to ensure that the disposal of pesticides for
insecticide-treated nets distributed in its program complies with WHO Pesticide
Evaluation Scheme guidelines.

The Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government states that an agency’s internal control should provide reasonable
assurance concerning the effectiveness and efficiency of operations, including the use of
the agency’s resources. In this case, the mission’s limited internal control over
monitoring and evaluating was not able to effectively manage the use of the insecticide
prior to its expiration at either the implementing partner level or the USAID level.
Moreover, there was no technical guidance provided to the service providers or
proactive controls on the part of the implementing partner or USAID to manage
insecticide stocks to avoid wasteful expiration.

To strengthen the mission’s bed net retreatment program, this audit makes the following
recommendations:

   Recommendation No. 4: We recommend that USAID/Uganda develop a plan,
   with milestones, to protect, safely collect, and dispose of expired retreatment
   insecticide in accordance with World Health Organization standards.

   Recommendation No. 5: We recommend that USAID/Uganda, in conjunction
   with its implementing partner, establish procedures to manage the storage and
   use of bed net retreatment insecticide packages to ensure that all packages are
   used prior to expiration.




                                                                                         6
Performance Management Plan
Was Not Updated or Approved

Summary: Contrary to applicable guidance, the performance management plan (PMP)
for the fiscal year 2006 PMI program (Strategic Objective No. 8) was neither approved
nor updated. This occurred because the mission did not require a final approved PMP.
In the absence of a completed and approved PMP, significant data quality problems
occurred and USAID/Uganda did not have reasonable assurance that it was maintaining
the elements that are essential to the operation of a credible and useful performance-
based management system.

USAID’s Preparing a Performance Monitoring Plan (TIPS No. 7) states that a mission’s
strategic plan will have identified preliminary performance indicators, and adds that the
PMP builds on this initial information. The definition of each indicator and the unit of
measure should be detailed enough to ensure that different people at different times
would collect identical types of data. USAID’s Automated Directives System (ADS) 203
emphasizes that operating units will prepare a PMP for each strategic objective.
Information included, shall enable comparable performance data to be collected over
time, even in the event of staff turnover, and shall clearly articulate expectations in terms
of scheduling and responsibility. Specifically, PMPs shall provide a detailed definition of
the performance indicators that will be tracked; specify the source, method of collection,
and schedule of collection for all required data; and assign responsibility for collection to
a specific office, team, or individual. Finally, GAO’s Standards for Internal Control in the
Federal Government states that control activities are an integral part of achieving
effective results and that such activities include approvals and authorizations.

Nevertheless, the PMP for the fiscal year 2006 PMI program (Strategic Objective No. 8)
was neither updated nor approved by management. Although the audit team was able
to obtain a copy of a draft plan dated May 2006, no final version of the draft or
management approval of the draft could be located. Additionally, the draft plan was not
completely updated to reflect the new expanded PMI program. Comparing the draft
PMP to the first annual PMI report revealed several discrepancies. Bed net retreatment,
indoor residual spraying, and intermittent preventive treatment were not included as
performance indicators in the draft PMP. In addition, artemisinin-based combination
therapy was included in the PMI report, but the draft PMP still referenced use of
previously discontinued drugs.

These omissions occurred because the mission did not require the strategic objective
team to complete a PMP for approval by mission management. The mission cited
staffing constraints owing to the rapid expansion of the preexisting malaria program
under PMI, stating that the staffing levels at the time were not adequate to address the
additional management responsibilities posed by PMI.             Regarding the lack of
management approval, mission officials stated that approval was not a requirement in
the ADS. Although this is technically true, without management approval, the PMP
remained a draft document and never became an official mission document. Moreover,
final management review before approval might have revealed the omissions mentioned
above. Finally, as noted in GAO’s Standards for Internal Control in the Federal
Government, such approvals are an integral part of achieving effective results.




                                                                                           7
Without a completed and approved PMP, USAID/Uganda has lacked a critical tool for
planning, managing, and documenting data collection. The PMP contributes to the
effectiveness of the performance monitoring system by ensuring that comparable data
will be collected on a regular and timely basis. Without it, the mission did not have
reasonable assurance that it was maintaining the elements essential to a credible and
useful performance-based management system. Had the plan been completed as
required, many of the data quality problems noted in this report could have been
avoided.

The PMI performance management plan for fiscal year 2007 has subsequently been
updated to reflect the new expanded PMI program. However, the mission does not have
formal procedures for officially approving PMPs (the fiscal year 2007 plan was also not
approved by management) and for making such a plan an official mission document.
Therefore, this audit makes the following recommendations:

   Recommendation No. 6: We recommend that the USAID/Uganda complete and
   implement a final approved performance management plan under the President’s
   Malaria Initiative program.

   Recommendation No. 7:          We recommend that USAID/Uganda establish
   procedures requiring final, approved performance management plans.


Site Visits Were Not Conducted
Summary: USAID/Uganda did not conduct site visits to its implementing partners and
service providers for the fiscal year 2006 PMI program, contrary to USAID guidance.
The mission attributed the lack of site visits during that time to the lack of staff assigned
to the PMI program. Without active monitoring through site visits, the mission did not
have reasonable assurance that reporting and data used for performance-based
decision making were accurate and reliable. Additionally, regular site visits might have
prevented many of the problems identified in this report.

ADS 202.3.4.6 states that strategic objective teams must ensure that they have
adequate official documentation on agreements used to implement USAID-funded
projects, resources expended, issues identified, and corrective actions taken. ADS
202.3.6 states that monitoring the quality and timeliness of outputs produced by
implementing partners is a major task of cognizant technical officers and strategic
objective teams. It specifies that problems in output quality provide an early warning that
results may not be achieved as planned and that early action in response to problems is
essential in managing for results. The audit team believes that regular site visits are an
integral part of such monitoring.

The PMI strategic objective team did not conduct site visits for implementing partners
and service providers in the fiscal year 2006 PMI program. The audit team could find no
record of any site visits by USAID/Uganda officials to implementing partners and service
providers for either the projects carried over from the previous program or the new
projects as reported in the PMI annual report. Several service providers reported that
implementing partners had not conducted site visits to their projects either.




                                                                                           8
This occurred as a result of weak monitoring controls and reported staffing constraints
on the part of USAID/Uganda. The PMP, which specifies monitoring and data collection
procedures, was not completed for fiscal year 2006 and did not contain all of the PMI
projects for that year. The mission cited the lack of adequate staff at the time to address
all of the additional responsibilities for the expanded PMI program.

USAID/Uganda has addressed two of the problems mentioned above. As of October 17,
2007, the mission has had a new Mission Order (No. 200-6B) 5 to establish policy and
procedures for the submission of site inspection and field visit reports. The mission was
also advertising for additional staff for the PMI team. However, based on the comments
of service providers, it appears that implementing partners may not have monitored
service providers as extensively as they should have.

Without active monitoring through regular site visits, the mission did not have reasonable
assurance that data used for performance-based decisionmaking and reporting were
accurate and reliable. An active monitoring program with regular site visits for
monitoring project progress might have helped to avoid many of the data quality and
program management problems identified in this audit. Therefore, this audit makes the
following recommendation:

    Recommendation No. 8: We recommend that USAID/Uganda develop and
    implement a plan to regularly perform and document site visits to President’s
    Malaria Initiative implementing partners that include the assessment of progress,
    the validation of reported data, and the verification of those partners’ monitoring
    of service providers.


Data Quality Assessments
Were Not Completed
Summary: Data quality assessments were not completed in the required timeframe for
the performance indicators reported in the fiscal year 2006 PMI annual report, as
required by USAID guidance. This situation arose as a result of weak internal control.
Uncompleted data quality assessments led to data quality problems, and USAID/Uganda
did not have reasonable assurance that data quality for published results met validity,
timeliness, and reliability standards, the lack of which could negatively affect
performance-based management decisions.

ADS 203.3.5 states that operating units shall, at regular intervals, critically assess the
data they are using to monitor performance to ensure that the data are of reasonable
quality and accurately reflect the process or phenomenon they are being used to
measure. It also states that data quality will be assessed as part of the process of
establishing performance indicators and choosing data collection sources and methods.
Finally, ADS 203.3.5.2 states that data reported to USAID/Washington for Government
Performance and Results Act reporting purposes or for reporting externally on agency
performance, such as the first annual PMI report, must have had a data quality
assessment within the 3 years before submission.
5
  This Mission Order was issued in response to a recommendation from a prior Office of Inspector General
audit report, Audit of USAID/Uganda’s Microfinance Activities, report no. 4-617-07-010-P, dated August 30,
2007.


                                                                                                             9
Data quality assessments for the four major performance indicators in the fiscal year
2006 PMI program were not completed within the 3 years before submission. The audit
team could find no assessments in the required timeframe for the mission’s four major
performance indicators: (1) insecticide-treated bed nets, (2) indoor residual spraying, (3)
intermittent preventive treatment, and (4) artemisinin-based combination therapy drugs.
USAID/Uganda did, however, have a report dated June 2007 from the implementing
partner contracted to do assessments, but the report did not completely conform to
requirements. In addition to being published after the fiscal year 2006 PMI annual
report, the assessment report included only an assessment covering the net distribution
indicator. It did not include assessments for the other three reported results.
Additionally, the assessment rated the indicator “acceptable” and did not identify the
data quality problems identified in this report, other than the indicator definition issue
described in the following finding.

Data quality assessments were not performed in the required timeframe because the
mission lacked internal control to enforce ADS requirements and ensure that
assessments were completed prior to the publication of annual or external reports.
According to mission officials, a contributory cause was a lack of staff at the time the
PMI program was initiated. To address the need to complete the data quality
assessments for all PMI performance indicators, and the lack of controls requiring
assessments in the required timeframes, this audit makes the following
recommendations:

   Recommendation No. 9: We recommend that USAID/Uganda perform data
   quality assessments on all performance indicators under the President’s Malaria
   Initiative program that are reported either annually or externally.

   Recommendation No. 10: We recommend that USAID/Uganda establish
   procedures, in conjunction with its assessment partner, to require completion of
   data quality assessments for all President’s Malaria Initiative performance
   indicators prior to the time that results are submitted for publication in annual or
   external reports in accordance with applicable guidance.


Net Distribution Indicator Was
Incorrectly Defined and Reported
Summary: Contrary to USAID guidance, the net distribution indicator was incorrectly
defined and reported. This resulted from the lack of a data quality assessment.
Consequently, the results, as defined by the indicator, overstated the actual results,
which could negatively affect subsequent results-oriented management decisions.

The definition for the net distribution indicator was incorrectly defined and reported.
Defined as nets that were either sold or distributed through retailers to consumers such
as pregnant women and children under 5, the indicator reported results that reflected
sales and distributions to either retailers or wholesalers and not to consumers. This led
to overstated results, because many of the nets remained in the supply chain and had
not been sold or distributed at the time of reporting. This issue could easily have been




                                                                                          10
identified by a data quality assessment on this performance indicator 6 as required in the
3-year period prior to report submission.

According to ADS 203.3.4.2e, performance indicators selected for inclusion in the PMP
should measure changes that are clearly and reasonably attributable to USAID efforts.
Additionally, USAID’s Guidelines for Indicator and Data Quality states that one of the
critical requirements for an indicator is the degree to which the indicator and the related
data accurately reflect the process it is being used to measure. It continues by stating
that an indicator is valid if it closely tracks the result it is intended to measure.




                                                                   Photo taken at Bobi Internally Displaced
                                                                   Persons Camp in Gulu, Uganda, on
                                                                   October 26, 2007. The household received
                                                                   free insecticide-treated net to protect
                                                                   children under the age of 5. (Photo taken
                                                                   by RIG/Pretoria auditor.)




This indicator did not measure what it was intended to measure, which could lead to
erroneous decisions. Without accurate data, USAID/Uganda did not have reasonable
assurance that data quality met validity, timeliness, and reliability standards, the lack of
which could negatively affect decisionmaking. To ensure that the mission’s reported
results are measuring intended targets, this audit makes the following recommendation:

    Recommendation No. 11: We recommend that USAID/Uganda assess its net
    distribution indicator and establish the procedures necessary to help ensure that
    the reporting for this performance indicator is a valid, timely, and reliable
    measure of program accomplishments.




6
  See the previous finding on page 10 for a discussion of the lack of data quality assessments for PMI
indicators.


                                                                                                         11
Net Distribution Results Were Not
Always Accurate and Supported
Summary: Bed net distribution was incorrectly reported by the implementing partner and
private sector net distributions were partially unsupported, contrary to Federal guidance.
The principal cause was the lack of adequate record-keeping and reporting systems,
which resulted from a lack of training. Consequently, USAID/Uganda did not have
reasonable assurance that intended results were being achieved, which could negatively
affect performance-based decisions.

Our samples identified several data quality problems with service providers and the
implementing partner involved in the insecticide-treated bed net distribution. These
included (1) results reported from the wrong reporting period, (2) results reported that
were not part of USAID’s program, (3) the lack of supporting documentation for results,
and (4) a mathematical error. These errors were found in the two major PMI
subprogram areas discussed below.




Photo of insecticide-treated net used by the beneficiary in the picture presented on page 11.
(Photograph taken by RIG/Pretoria auditor on October 26, 2007, Gulu, Uganda.)



Subsidized Net Distribution – The implementing partner incorrectly reported
subsidized net distribution for two of its service providers, and lacked supporting
documentation for a third provider under this program area. In a sample of subsidized
nets distributed, the implementing partner had included 2 months of fiscal year 2007
data, which overstated results for one of its service providers by 8,651 nets in the
number reported for fiscal year 2006. Since USAID and the Federal Government use an
annual period for reporting results against their respective targets, including data from
the next fiscal year artificially inflated the reported results. This practice can also lead to


                                                                                            12
double counting if those results from the next fiscal year are counted again in the
succeeding year. For a second service provider, 658 nets were reported to USAID that
were not subsidized and not part of USAID’s PMI program. For a third service provider,
no records were provided to support a reported 7,142 nets distributed.

Private Sector Net Distribution – The principal implementing partner had a
mathematical error, and one service provider lacked data to support part of the reported
net distributions under this program area. The implementing partner did not have
supporting documentation for 17,716 nets that were reported as distributed by its five
service providers. Additionally, one of the service providers did not have any supporting
documentation for approximately 8,000 retail distributions.

The GAO’s Standards for Internal Control in the Federal Government states that all
transactions and significant events need to be clearly documented and that the
documentation should be readily available. Promptly recording transactions helps to
ensure that all transactions are completely and accurately recorded.                  USAID’s
Guidelines for Indicator and Data Quality (TIPS No. 12) states that USAID’s results-
oriented management approach relies on managers to support their decisions with
performance information. Sound decisions require accurate, current, and reliable
information, and the benefits of this results-oriented approach depend substantially on
the quality of the performance information available. According to ADS 203.3.4.2e,
performance indicators selected for inclusion in the PMP should measure changes that
are clearly and reasonable attributable to USAID efforts. Guidelines for Indicator and
Data Quality also states that one of the critical requirements for an indicator is the
degree to which the indicator and the related data accurately reflect the process it is
being used to measure. An indicator is valid if it closely tracks the result it is intended to
measure.

The data problems described above occurred because of the lack of training for the
service providers and the implementing partner. The service providers stated that they
had not received training or guidance on what record-keeping systems were necessary
and what specifically constituted the reporting period. The implementing partner was
unable to explain the variance between service provider records and the information
reported to USAID. The partner was also unaware of the reporting problems associated
with the service providers. Internal control for results reporting was not sufficiently
reliable to ensure that reported service provider results were part of the mission’s
program, occurred within the reporting period, were accurate and supported, and were
accurately summarized prior to being reported to the mission.

Without accurately reported results, USAID/Uganda did not have reasonable assurance
that data quality met validity, timeliness, and reliability standards, the lack of which could
negatively affect performance-based decisionmaking. For these reasons, this audit
makes the following recommendation to strengthen the results reporting system under
the mission’s PMI program:

   Recommendation No. 12: We recommend that USAID/Uganda develop a plan,
   with milestones, to provide training to all service providers and the implementing
   partner on how to properly record and report on bed net distribution, including
   that results occur in the proper reporting period, are part of USAID/Uganda’s
   program, are properly supported, and are mathematically accurate.



                                                                                           13
Lack of Inventory Records
and Controls
Summary: Contrary to applicable guidance, four districts lacked data and inventory
control systems for the storage of bed net retreatment insecticide packages and the
receipt and distribution of artemisinin-combination therapy drugs. The principal cause
was the lack of training given to the service providers. Consequently, USAID/Uganda
did not have reasonable assurance that intended results were being achieved, which
could negatively affect performance-based decisions.

The four districts sampled 7 lacked data and inventory control systems for the storage of
retreatment insecticide packages and the receipt and distribution of artemisinin-
combination therapy drugs. These two program areas are discussed below.

Retreatment Packages – There were no data and inventory systems for the storage of
net retreatment packages in a sample of the three districts of Ibanda, Kiruhura, and
Mbarara. The Ministry of Health medical stores for the three districts did not maintain an
inventory system, which made it impossible to verify reported retreatments and confirm
the existence of remaining inventory. For example, in Kiruhura, the implementing
partner reported that 14,000 packages were received and that 6,355 retreatments were
completed, which would have left 7,645 packages remaining. However, approximately
4,600 packages remained in the medical stores, leaving approximately 3,045
unaccounted for.

Artemisinin-Combination Therapy Receipt and Distribution – The Ministry of Health
unit and the individual distributors visited in the Gulu District did not have records for the
receipt and distribution of all of the artemisinin-combination therapy drugs that were
reported as distributed to the district. The health unit could not account for the receipt of
4,901 artemisinin-combination therapy packages that were purchased by an
implementing partner from the National Medical Stores. Furthermore, the community
medicine distributors, who received the drugs from the health unit and distributed them
in the camps for internally displaced persons, did not maintain any stock records. It was
therefore not possible to verify how many artemisinin-combination therapy packages
were actually received and subsequently distributed to the end users.

GAO’s Standards for Internal Control in the Federal Government states that all
transactions and significant events need to be clearly documented and that the
documentation should be readily available. Promptly recording transactions helps to
ensure that all transactions are completely and accurately recorded. The standards
further state that an agency must establish physical control to secure and safeguard
vulnerable assets such as inventory. Such assets should be periodically counted and
compared to control records to help reduce the risk of errors, fraud, misuse, or
unauthorized alteration. USAID’s Guidelines for Indicator and Data Quality (TIPS No.
12) states that USAID’s results-oriented management approach relies on managers to
support their decisions with performance information. Sound decisions require accurate,
current, and reliable information, and the benefits of this results-oriented approach
depend substantially on the quality of the performance information available.


7
    A total of 27 districts participated in the PMI.


                                                                                           14
This situation occurred because the service providers lacked training. Service providers
stated that they had not received training or guidance on what inventory systems were
necessary to safeguard and accurately report the distribution and use of PMI inventory.

The absence of inventory control systems substantially raises the risks of PMI
commodities being lost, stolen, or misused, in addition to being erroneously reported.
Without accurately reported results, USAID/Uganda did not have reasonable assurance
that data quality met validity, timeliness, and reliability standards, the lack of which could
negatively affect decisionmaking.         As a result, this audit makes the following
recommendation to strengthen inventory controls under the mission’s PMI program:

   Recommendation No. 13: We recommend that USAID/Uganda develop a plan,
   with milestones, to provide technical assistance or training to all service providers
   on how to implement adequate inventory controls for President’s Malaria Initiative
   commodities.




                                                                                           15
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Uganda concurred with 10 of the 13
recommendations identified to strengthen USAID/Uganda’s management of its
President’s Malaria Initiative (PMI) program—issuing revised policies and procedures for
final action for three of these recommendations, and taking sufficient actions for
management decision on seven recommendations. Management decisions have not
been reached on three recommendations. The mission’s comments and our evaluation
of those comments are summarized below.

Recommendation no. 1 recommends that USAID/Uganda request that the Ministry of
Health (1) immediately separate stocks of insecticide and medicine/medical supplies and
(2) store such stock in separate facilities. In responding to this recommendation, the
mission stated that in most districts, insecticides were kept in the medicine store, but
were in separate compartments. The mission considered this to be sufficient. However,
in the three districts sampled, retreatment insecticide was stored alongside of drugs,
such as antibiotics, and other medical supplies. Three authoritative sources described in
the report—Food and Agriculture Organization of the United Nations, World Health
Organization, and the International Programme on Chemical Safety—all recommend
that insecticides be stored in a secure room away from food and human medicine/drugs.
In addition, the mission’s “Guidelines for Data and Insecticide Management” in Annex 1,
section 2.0, to the mission’s management response, recommend that insecticides be
stored in a secure room that is not used for living in or for storage of food and human
medicine/drugs. As such, a management decision has not been reached on this
recommendation.

Recommendation no. 2 recommends that USAID/Uganda request that the Ministry of
Health (1) test the medicine and medical supplies that had been stored with insecticide
for contamination and (2) destroy medicine and medical supplies found to be
contaminated. The mission agreed with this recommendation. The mission stated that it
has examined all insecticides and has found them to be in tear-proof sachets and
packed in hard cardboard boxes. No leaks were discovered. A management decision
has been reached for this recommendation. Final action can be achieved upon
presentation of the documentation of the mission’s examination of the insecticides to
USAID’s Office of Audit, Performance, and Compliance Division.

Recommendation no. 3 recommends that USAID/Uganda develop a plan, with
milestones, to provide training to all service providers on how to properly store
retreatment insecticide prior to distribution.      The mission agreed with this
recommendation and stated that it has trained responsible staff within both the
President’s Malaria Initiative partners and the Ministry of Health. A management
decision has been reached on this recommendation.               Final action on the
recommendation can be reached upon presentation of the documentation of this training
to USAID’s Office of Audit, Performance, and Compliance Division.




                                                                                      16
Recommendation no. 4 recommends that USAID/Uganda develop a plan, with
milestones, to protect, safely collect, and dispose of expired retreatment insecticide in
accordance with World Health Organization standards. The mission agreed with this
recommendation, developed a disposal plan, and submitted it to the USAID mission
environmental officer for approval. After the approval is granted, the disposal is to take
place during the third or fourth week of April 2008. A management decision has been
reached for this recommendation.

Recommendation no. 5 recommends that USAID/Uganda, in conjunction with its
implementing partner, establish procedures to manage the storage and use of bed net
retreatment insecticide packages to ensure that all packages are used prior to
expiration. The mission agreed with the recommendation and stated that it has
established and implemented new procedures for handling surplus insecticides in a
recent retreatment campaign. Final action has been achieved for this recommendation.

Recommendation no. 6 recommends that USAID/Uganda complete and implement a
final approved performance management plan (PMP) under the President’s Malaria
Initiative program. Although the mission developed and implemented a PMP, it did not
fully implement this recommendation. As explicitly stated in the report, the mission’s
PMP must be (1) updated to reflect the new expanded PMI program and (2) approved by
mission management. A management decision has not been reached for this
recommendation.

Recommendation no. 7 recommends that USAID/Uganda establish procedures requiring
final, approved PMPs. The mission agreed partially with the recommendation and will
issue a program monitoring and evaluation Mission Order, to be issued by May 2008,
applicable to all mission-strategic objectives, containing a section that will define specific
procedures regarding the development and updating of PMPs. However, the approval of
PMPs is not addressed. As such, a management decision has not been reached for this
recommendation.

Recommendation no. 8 recommends that USAID/Uganda develop and implement a plan
to regularly perform and document site visits to President’s Malaria Initiative
implementing partners to assess progress, validate reported data, and verify those
partners’ monitoring of service providers. The mission agreed with this recommendation
and issued a new Mission Order on October 17, 2007, which details requirements for
site visits performed by cognizant technical officers. The mission also reiterated the
importance of site visits to implementing partners during a retreat on February 21, 2008.
Final action has been achieved for this recommendation.

Recommendation no. 9 recommends that USAID/Uganda perform data quality
assessments on all performance indicators under the President’s Malaria Initiative
program that are reported either annually or externally. The mission agreed with the
recommendation and will issue, by May 2008, a program monitoring and evaluation
Mission Order containing a section that defines specific procedures regarding the
completion of data quality assessments for all performance indicators including those
under the President’s Malaria Initiative. The mission will also ensure that its monitoring
and evaluation contractor follows the same guidelines set forth in the monitoring and
evaluation mission order.      A management decision has been reached for this
recommendation.



                                                                                           17
Recommendation no. 10 recommends that USAID/Uganda establish procedures, in
conjunction with its assessment partner, to require completion of data quality
assessments for all President’s Malaria Initiative performance indicators prior to the time
that results are submitted for publication in annual or external reports in accordance with
applicable guidance. The mission agreed with this recommendation and stated that
USAID’s monitoring and evaluation contractor is currently planning to conduct a data
quality assessment for PMI indictors in April 2008, and the indicators that were not
subjected to data quality assessment during the past 2 years will be included in this
assessment. A management decision has been reached for this recommendation.

Recommendation no. 11 recommends that USAID/Uganda assess its net distribution
indicator and establish the procedures necessary to help ensure that the reporting for
this performance indicator is a valid, timely, and reliable measure of program
accomplishments. The mission agreed with this recommendation and in January 2008
provided new performance indicators and revised the definitions of some of the existing
performance indicators, which are now correctly reflected in the work plan of the
implementing partners and the mission PMP. A management decision has been
reached for this recommendation. Final action can be achieved upon mission
management approval of the PMP.

Recommendation no. 12 recommends that USAID/Uganda develop a plan, with
milestones, to provide training to all service providers and the implementing partner on
how to properly record and report on bed net distribution, including that results occur in
the proper reporting period, are part of USAID/Uganda’s program, are properly
supported, and are mathematically accurate.             The mission agreed with this
recommendation and provided various actions to address the recommendation and
timetables for completion. As such, a management decision has been reached for this
recommendation.

Recommendation no. 13 recommends that USAID/Uganda develop a plan, with
milestones, to provide technical assistance or training to all service providers on how to
implement adequate inventory controls for President’s Malaria Initiative commodities.
The mission disagreed with the discussion in the report. The mission stated that
although there were discrepancies between the reported data and the data verified for
retreatment packages, those discrepancies were anomalies. The mission emphasized
that the implementing partners have their own insecticide inventory system and tracking
forms. The mission, nevertheless, agreed with the recommendation and provided action
plans and milestones. As such, final action has been achieved on this recommendation.




                                                                                        18
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted Government auditing standards. Field work was conducted from
October 9 through November 8, 2007, in Kampala and various districts in Uganda.

The objective of this audit was to determine whether selected USAID/Uganda activities
under the President’s Malaria Initiative (PMI) were achieving planned results, and what
was the impact. In answering the objective, the audit team assessed the effectiveness
of internal control related to PMI, such as (1) the mission’s documentation related to
managing and monitoring the program, (2) the implementing partners’ reporting of
program results, (3) the establishment of a system of regular site visits, and (4) the
mission’s annual self-assessment of internal control in accordance with the Federal
Managers Financial Integrity Act of 1982 for fiscal year 2006. We also tested internal
control established by selected PMI partners.

The scope of this audit included USAID/Uganda’s PMI activities conducted during fiscal
year 2006. The planned activities were selected from the universe of PMI-funded
projects being conducted in Uganda. The mission reported a total of $9.5 million as
being obligated for the PMI program in fiscal year 2006.


Methodology
To answer the audit objective, we met with officials from USAID/Uganda, implementing
partners, and local service providers. The audit team reviewed pertinent planning
documents, such as the malaria operational plan, in addition to various reporting
documents on fiscal year 2006 accomplishments. The audit covered all four of the major
fiscal year 2006 interventions: (1) bed net distribution, (2) intermittent preventive
treatment, (3) artemisinin-based combination therapy, and (4) indoor residual spraying.
Testing, however, was limited for the intermittent preventive treatment intervention and
the spraying intervention owing to the geographic isolation of district in which they were
conducted.

The audit team interviewed mission officials, implementing partners, and service
providers responsible for PMI implementation and monitoring. We reviewed pertinent
documents that included but were not limited to trip reports and quarterly reports. This
review allowed us to determine the levels of monitoring being conducted and whether
progress toward outputs had been achieved. The audit team conducted site visits to
implementing partners and local service providers, including nongovernmental
organizations, commercial entities, and government health facilities. These site visits
included testing data found in progress reports and annual reports, as well as relative
internal control. Output data testing involved comparing the reported information to
supporting documentation such as inventory records, invoices, and other record-keeping
systems.




                                                                                       19
MANAGEMENT COMMENTS


March 19th 2008

MEMORANDUM

To:           Regional Inspector General/Pretoria, Nathan S. Lokos

From:         USAID/Uganda Mission Director, Margot Ellis /s/

Thru:         USAID/Uganda Deputy Mission Director, Deborah Grieser /s/

Subject:      Audit of USAID/Uganda’s Implementation of the President’s Malaria
              Initiative (Report No. 4-617-08-00X-P)

USAID/Uganda Mission is thankful to the RIG staff for conducting the subject audit and
making recommendation to further improve the implementation of the PMI program.

The following is the Mission’s response to the thirteen recommendations included in the
audit report. Mission requests that recommendation 1, 2, 3, 4, 5, 6, 8, 11, 12, and 13 be
closed (through APC) upon the issuance of the report as collective actions to rectify
shortcomings mentioned in those recommendations have already been implemented.

In the attached response, the Mission has described the corrective action it plans to
undertake to implement the remaining recommendations 7,9and 10. Upon completion of
those actions, Mission will request RIG to close those recommendations (through APC).




                                                                                      20
Response to the Audit Report of USAID/Uganda’s Implementation of the
President’s Malaria Initiative; Audit Report No 4-617-08-00X-P, February 21st, 2008

1.       Retreatment Insecticides Stored With Drugs

Recommendation 1: We recommend that USAID/Uganda request that the Ministry
of Health 1) immediately separate stocks of insecticides and medicines/medical
supplies and 2) store such stock in separate facilities.

Recommendation 2: We recommend that USAID/Uganda request that the Ministry
of Health 1) test the medicine and medical supplies that had been stored with
insecticides for contamination and 2) destroy medicine and medical supplies
found to be contaminated.

Recommendation No. 3: We recommend that USAID/Uganda develop a plan, with
milestones, to provide training to all service providers on how to properly store
retreatment insecticide prior to distribution.

Soon after receiving the communication on findings by the Auditors, USAID
implementing partner UPHOLD/Malaria Consortium visited the participating districts
stores’ and checked the status of storage of insecticide kits together with district Ministry
of Health officials. In most districts, although the insecticide was kept in the medicine
stores, it was kept in a separate compartment, well separated from human medicines
and other supplies. In those districts where the insecticide kits were stored within the
same compartment as human medicine there was no indication of contamination for the
following reasons;
   i)       All the insecticide sachets were examined and there was no sign of leakage
            of insecticide, as the sachets are made of tough material that does not tear
            easily.
   ii)      The sachets were all packed in hard cardboard boxes, further separating
            them from the rest of the contents in the store.

In addition the districts were provided guidelines on correct storage of the insecticide
(Annex 1). Guidelines highlighting the storage issues including written and verbal
support with visual verification and contingency plans where safe storage cannot be
managed by district, have been now put in place. Notable changes include;

     •  In October 2007 the net re-treatment implementing partner developed insecticide
        storage guidelines (Annex 1) and trained responsible staff both within project and
        Ministry of Health accordingly.
   •    These guidelines were distributed to Ministry of Health who were also advised
        verbally on this during the training.
In the net re-treatment exercise recently concluded (from November 2007 to January
2008), the insecticides were stored in separate stores according to PERSUAP
guidelines. Further still, supervisors at central and district teams check the storage
conditions as a key part of their supervision and report to the implementing partner’s
focal person. In districts where storage in non-drug facilities cannot be guaranteed and
where storage in alternative facilities (e.g. rooms in the district office) is considered to be
a security risk, the team will travel with the insecticide to those sites during the re-
treatment periods and the insecticide will not be stored into those district stores.



                                                                                            21
In view of the remoteness of the possibility of contamination, non observance and
reporting of any contamination, the Ministry of Ministry of Health’s (District malaria focal
person and store managers) full involvement with this exercise and other appropriate
actions taken as explained above, recommendations 1, 2 and 3 have been implemented
and should now be closed (through APC).

2.        Retreatment Insecticide Expired

Recommendation No. 4: We recommend that USAID/Uganda develop a plan ,with
milestones, to protect, safely collect and dispose of expired retreatment
insecticide in accordance with World Health Organizations standards.

Recommendation No. 5: We recommend that USAID/Uganda, in conjunction with
its implementing partner, establish procedures to manage the storage and use of
bed net retreatment insecticide packages to ensure that all packages are used
prior to expiration.

Since the start of net re-treatment campaign, the agreement has been that left over
insecticide that remain at district can be used for “mopping up” or available for the next
campaign. The assumption was that costs of recovering the insecticide would be
excessive and that the insecticide would be usefully available at district level for the
subsequent round. The problem in 2006 was that the next campaign was delayed (due
to slowness in the flow of funds) so insecticides expired by the time the next campaign
occurred. The implementing partner acknowledged that this should have been noted and
acted on, prior to expiration. The following changes have since been made to address
this anomaly;

      •      In the recently concluded retreatment exercise, Supervisors recollected all
             expired insecticides for central disposal from districts they visited.
      •      A disposal plan for the expired insecticides was developed and submitted to
             USAID Mission Environmental Officer on January 30th 2008 for his approval
             (Annex 2). After the approval is granted, the disposal will take place during
             the 3rd or 4th week of April in the presence of the USAID Mission
             Environmental Officer.
      •      Surplus insecticide remaining from the current round will not all remain in the
             districts. A maximum of 10% will be left for mopping up and the remainder will
             be brought back by the supervision team for redistribution to the remaining
             districts or use for other activities following the re-treatment campaign. The
             collection procedures for left over insecticides are included in the guidelines
             mentioned in responses to recommendations above.
      •      All these procedures were practiced with recent net re-treatment campaign.
             Mission malaria Technical Advisor visited the three districts (Isingiro, Ibanda
             and Mbarara) on 21st February 2008 and ensured that all the above plans are
             successfully implemented.

With the implementation of the above actions the intents of the recommendations have
been satisfied. Therefore, the above recommendations should now be closed (through
APC).




                                                                                         22
3.     Performance Management Plan Was Not Updated or Approved

Recommendation No. 6: We recommend that USAID/Uganda complete and
implement a final approved performance management plan under the President’s
Malaria Initiative program.

The PMI team (both USAID and CDC Uganda) with support from PMI HQ and the SO
team members developed and implemented the performance management plan specific
to PMI 2006 (Annex 3) during the fiscal year 2007.

Since the performance management plan has been completed and implemented, this
recommendation should now be closed (through APC) upon issuance of this report.

Recommendation No. 7: We recommend that the USAID/Uganda establish
procedures requiring final approved performance management plan.

The Health SO’s Performance Management Plan (PMP) was updated in early May 2006,
and the Mission’s PMI PMP was jointly drafted by a team from USAID/Washington, CDC
Atlanta and USAID/Uganda in August 2006. By the time of this audit, the Mission had
not incorporated the agency-wide PMI PMP into the SO’s PMP although they were
subsequently incorporated. As stated in the audit recommendation, the Mission will issue
a Program Monitoring & Evaluation Mission Order (to be issued by May 2008) containing
a section that will define specific procedures regarding the development and updating of
PMPs. Those procedures will apply to all Mission activities, not just those under PMI.

4.     Site Visits Were Not Conducted

Recommendation No. 8: We recommend that the USAID/Uganda develop and
implement a plan to regularly perform and document site visits to President’s
Malaria Initiative implementing partners that includes the assessment of progress,
the validation of reported data, and the verification of those partners monitoring of
service providers.

In order to ensure that site visits are performed by CTOs and results thereof
documented in trip reports, Uganda mission introduced a new procedure as stated in
mission order No. 200-6B (Annex 4) issued on October 17, 2007. The new procedures
are now in place and site visits by CTOs are now effectively monitored.

Regarding site visits by the implementing partners, the respective CTOs and Activity
Managers have already been informed and tasked to make sure implementing partners
carry out site visits and are monitoring their program activities, assess the progress, the
validation of the data and report to the Mission. To reinforce this measure, the PMI team
reiterated the importance of performing and documenting site visits to all its partners at
PMI implementing partners retreat on 21st February 2008. In addition, two Program
Management Specialists (for Malaria) were recruited and reported for duty on February
4, 2008. These Program Specialists are following up with this activity with the
implementing partners.

Since the Mission has undertaken all the corrective actions recommended, this
recommendation should be closed (through APC) upon issuance of the report.


                                                                                        23
5.     Data Quality Assessments Were Not Completed

Recommendation No. 9: We recommend that USAID/Uganda perform data quality
assessments on all performance indicators under the President’s Malaria Initiative
program that are reported either annually or externally.

Recommendation No. 10: We recommend that USAID/Uganda establish
procedures, in conjunction with its assessment partner, to require completion of
data quality assessments for all President’s Malaria Initiative performance
indicators prior to the time that results are submitted for publication in annual or
external reports in accordance with applicable guidance.

The Mission will ensure that data quality assessments of all performance indicators
reported either annually or externally including those under the President’s Malaria
Initiative program are completed within three years prior to publication. The accuracy,
timing and scope of the assessment will be emphasized.

The Mission will issue (by May 2008) a Program Monitoring & Evaluation (M&E) Mission
Order containing a section that defines specific procedures regarding the completion of
data quality assessments for all performance indicators including those under the
President’s Malaria Initiative. In addition, the Mission will ensure that its M&E contractor
follows the same guidelines set forth in the M&E Mission Order.

Currently USAID’s monitoring and evaluation contractor is planning to conduct a data
quality assessment for PMI indictors in April 2008 and the indicators that were not
subjected to data quality assessment during last two years will be included into this
assessment.

6.     Net Distribution Indicator Was Incorrectly Defined and Reported

Recommendation No. 11: We recommend that USAID/Uganda assess its net
distribution indicator and establish the procedures necessary to help ensure that
the reporting for this performance indicator is valid, timely, and reliable measure
of program accomplishments.

Prior to PMI, USAID supported free distribution of Insecticide Treated Nets (ITNs) to
beneficiary groups including children under five years of age, pregnant mothers and
people living with HIV/AIDs or sold ITNs through private sector. To reflect this, the only
ITNs global indictor that USAID used was the “Number of nets distributed or sold with
USG support”. At the beginning of fiscal year 2006, we used the same indicator for the
mission PMP, because the funds used for those activities mainly came from fiscal year
2005 budget.

We acknowledge the error in the indicator definition and following actions were
implemented to correct it.

With evolution and expansion of USG support for ITNs, PMI Uganda currently supports
the National Malaria Control Program through a four-pronged strategy for ITN
distribution:



                                                                                         24
        •   Free distribution through antenatal and expanded program on immunization (EPI)
            clinics;
        •   Free household distribution through mass campaigns and community-based
            organizations;
        •   Subsidization of LLINs for sale in the private sector; and
        •   Development of the private sector sale of full-priced LLINs.
            For the first three approaches, USAID will be able to provide data on ITN
            distributed to beneficiary groups. A new indicator “number of ITNs distributed free
            to beneficiary groups that were purchased or subsidized with USG support” has
            been set and systems are now in place to collect and report this information.

     For the fourth ITN distribution mechanism, a new indicator of private sector ITNs sales at
     full market price has been introduced. It reads “Sales of ITNs/LLINs by the NetMark
     distributors to the commercial trade, institutions and consumers”, and the definition
     thereof is “Number of ITNs/LLINs sold by the NetMark distributors to the commercial
     trade, institutions and consumers”.

     These new descriptions and definitions of the performance indicators were revised in
     January 2008 and are now correctly reflected in the work plan of the implementing
     partners and the mission Performance Monitoring Plan (PMP).

     Since corrective actions intended by this recommendation have been implemented, this
     recommendation should now be closed (through APC).


7.   Net Distribution Results Were Not Always Accurate and Supported

     Recommendation No. 12: We recommend that USAID/Uganda develop a plan, with
     milestones, to provide technical assistance or training to all service providers and
     the implementing partner on how to properly record and report on bed net
     distribution, including that results occur in the proper reporting period, are part of
     USAID/Uganda’s program, are properly supported, and are mathematically
     accurate.

     a) Subsidized net distribution:

     The two inconsistencies reported in the audit report refer to two separate commercial
     partners where claims for per net price support from AFFORD project were inconsistent
     with their sub-contracts (which contained ceilings for number of nets to be supported).
     These inconsistencies were noted by the implementing partner at the time and the
     service providers were not reimbursed for the extra claims. The implementing partner
     therefore reported only the number of nets that have been supported and reimbursed for
     under the project activities to USAID. Commercial partner’s records obviously include
     more sales than what was supported, reimbursed and reported to USAID. Discrepancies
     in reporting may have arisen through a move from reporting total numbers of nets
     supported to reporting those per fiscal year. This has been noted by the implementing
     partner who has given an assurance that this error will not occur in future reporting. To
     date, the following changes have been made;




                                                                                            25
   •   The implementing partner carefully assesses all claims from the service
       providers against subcontracts and an additional level of cross checking against
       partner’s original invoices is enforced.
   •   The implementing partner carries out internal audits on the data that they report
       to USAID.
   •   Possible confusion in data management for partners supported by both AFFORD
       and Netmark will be more closely observed in future and the implementing
       partners will be linked with mission monitoring and evaluation partner to ensure
       consistency in data management.
   •   Distributors will be re-trained in data capture before end of the second quarter of
       calendar year 2008 and the implementing partner will ensure that they keep their
       records in the manner that is consistent with what the project reports to
       USAID/PMI.

b) Private sector Net Distribution:

One commercial partner, Safinet, where the audit team found no supporting
documentation, operates in the informal entrepreneurial sector, which is not known for
good record keeping and archiving. This is despite the fact that Safinet staff have in the
past received training and coaching from NetMark. We have noted that the staff drop-out
rate with this service provider is very high due to various reasons beyond USAID and the
implementing partner’s control. However, to rectify the situation, the following changes
have been introduced;

   •   With effect from October 2007 the data supplied to USAID by NetMark Uganda is
       supported by hard copies of reported sales of Safinets. Only reliable data is thus
       reported to USAID.
   •   The implementing partner of this activity will train the five commercial partners on
       how to properly record and report on bed net distribution. The training will be
       completed by March 31, 2008.
   •   In 2007, USAID Monitoring and Evaluation contractor MEMS/MIS conducted
       three Performance Monitoring Courses which were attended by two PMI
       implementing partner’s (Net Mark and NUMAT) monitoring and evaluation staff.
       The course included modules on Monitoring program activity (project)
       implementation; the role of performance indicators and performance targets;
       Planning for data collection, analysis and use (performance monitoring plans);
       Implementing the performance monitoring plan; Ensuring data quality; Reporting
       and utilizing performance monitoring information among others. USAID will
       encourage all PMI implementing partners to attend such courses in future.
   •   The USAID/PMI together with MEMS program is planning to conduct a one day
       workshop in March 2008 for all PMI partners on data collection, recording and
       reporting according to USAID fiscal year quarters to make sure data collected are
       accurate and reflect correct reporting period. The mission has already developed
       a template for this purpose (Quarterly/Annual Reporting) for PMI partners.

With the development and implementation of the above plan the Mission has undertaken
corrective action to implement this recommendation and therefore it should now be
closed (through APC).




                                                                                        26
8.     Lack of Inventory Records and Controls

Recommendation No. 13: We recommend that USAID/Uganda develop a plan, with
milestones, to provide technical assistance or training to all service providers on
how to implement adequate inventory controls for President’s Malaria Initiative
commodities.

Re-treatment packages;
We do not agree with the statement in the audit report that there was no data and
inventory system for the storage of net re-treatment packages in the districts. In 2004,
when the Ministry of Health (MoH) net re-treatment system in Uganda was developed
with combined funding from several donors, it was agreed that MoH’s system of
inventory control will be used. Whilst the first campaign was carried out with the full and
active partnership of Malaria Consortium (sub partner for PMI net re-treatment)
alongside the National Malaria Control Program (NMCP), the second campaign was led
solely by NMCP with sub partner providing only financial and administrative support.
This was in line with the objective of developing a system that could be handed over and
run by the Ministry of Health. When the PMI planning began in Uganda in 2006, the
discussion of continuing to support the net treatment was raised and agreed. It was
agreed at that time that the existing system of MoH would be supported. The MoH’s
stand on this exercise was that MoH owned the data at district level and insecticides
remaining in districts were MoH commodities. In that system, the Uganda MOH
considered re-treatment packages as consumables and did not record them in their
usual stock cards. Therefore, the implementing partners introduced their own insecticide
inventory system and tracking forms. The National Malaria Control program gave its
approval to this system since there was no other system within their organization.

Under this arrangement, when insecticides are distributed to the districts, the
implementing partner issues an invoice and gets the signatures from the relevant
officials who received the goods. The originals of these receipts are kept with sub
partner and a copy left at the district offices. Data forms are used to record individual net
re-treated daily, then compiled into parish level and finally to sub county. Copies of
summary reports are kept in districts and auditors witnessed some of those.

As discussed with the auditors and implementing partners in a meeting held on
Wednesday October 31st 2007, the discrepancies were due to use of insecticides for
“mopping up” after the campaign by the district e.g. for treating of nets in schools. We do
not report this in the campaign results as we have not previously collected hard data on
it, being outside the scope, timeframe and budget of the campaign re-treatment
implementation. In response to this anomaly and as a follow up to the auditors verbal
feedback, plans for the 2007/08 implementation have been changed to ensure that data
about those insecticides used for mopping up is collected. We are also conducting a
retrospective data collection process for nets treated last year to assess uses of surplus
insecticide. This information will be reported to USAID by the end of February 2008.

Guidelines for use of surplus insecticide with a cap of 10% surplus insecticide to remain
in districts, and forms for district to report on specific uses of surplus insecticide have
been put in place this year in response to the audit findings. The guidelines explain how
and when this data will be collected. The guidelines require that the surplus insecticides
must be used within 2 months of completing the campaign re-treatment in a district. Data
will be collected at the end of 2 months and reported to USAID as an annex to the final


                                                                                          27
re-treatment campaign report. In summary, the following changes have been put in
place;

   •   Guidelines for allowed use of surplus insecticide kits were developed and
       implemented before 2007-8 net re-treatment (November 2007)
   •   Forms for districts to report use of insecticide kits after the end of the campaign
       and guidelines for collection of data have been developed and implemented from
       November 2007.
   •   Copies of all insecticide stock flow forms are brought back to Kampala for future
       audit events. A summary report on stock flow will be kept at MoH district offices
       and UPHOLD offices with copies of all data sheets held at Malaria Consortium
       offices. This change implemented from start of 2007-8 net re-treatment
       (November 2007).
   •   Data on previous use of insecticide at districts to be collected retrospectively and
       reported by end April 2008.

Artemisinin-Combination Therapy (ACT) receipt and Distribution

USAID/PMI in its first year (FY 06), supported procurement of ACT and distribution of
both USG and Global Fund ACT, as an emergency requirement due to a general stock
out situation arising from health facilities due to delay in distribution by National Medical
Stores.

It was appreciated that the National Medical stores (NMS) had a backlog in delivery of
essential medicines of up to 8 weeks and was not in a position to use their own labor
and transport to do emergency distribution. PMI partner MSH/ RPM Plus was therefore
requested to support the NMS in preparing packaging and distribution of Coartem.

The following activities were carried out to enable the emergency distribution of the
drugs:

   1. Development of a distribution plan covering all Health Sub-Districts (HSD) and
      requests for quotations (RFQ) from 3 reputable companies with capacity to
      quickly distribute medicines country wide.
   2. Supporting NMS financially to hire extra labor for preparing and packing of orders
      for the country wide distribution of Coartem®.
   3. Hiring 13-eight ton trucks to distribute Coartem® to all Health Sub-districts
      country wide. The insurance costs for the drugs in transit were borne by NMS.

To address bottlenecks to availability of ACTs USAID facilitated the distribution of
Community ACTs through payment of handling fees to NMS for the districts of Gulu,
Pader, Kitgum and Amuru. RPM Plus through its technical assistance to NMS ensured
that orders for all ACTs were brought and processed in time. Assistance was provided
in monitoring of delivery of procurements for the Global Fund ACTs to avoid
unnecessary delays at ports of entry as well as ensuring that NDA gives clearance for
distribution of the supplies after mandatory analysis in time. USAID support in 2006 was
only for distribution of ACT up to health facility level within the government system and
did not include inventory control at district level. USAID has been informed by the MOH
that they have enough ACT from GFATM until 2010. Consequently USAID will not
procure ACT but will only provide technical support particularly to areas identified by the



                                                                                          28
audit report i.e. improving Pharmaceutical management of ACTs in the areas that were
selected.

We acknowledge the audit findings and recommendations in regard to ACT in the
government system and the following actions have been made.

   •   USAID’s implementing partner ( RPM Plus) assisted NMS and MOH through
       support supervision visits to Pader and Amuru district and participated in the site
       visits of the technical review of April 2007 and Joint review visits of October 2007
       to identify the gaps in record keeping and reporting.

   •   Trained partners on how to manage pharmaceuticals using the Monitoring,
       Training and Planning (MTP) approach which include inventory control. It has
       implemented already in 4 districts in the West Nile area (Adjumani, Moyo, Arua
       and Nebbi) by Mid December 2007 and plans to implement in the Northern
       region in Gulu, Pader, Amuru and Kitgum by June 2008.

   •   To ensure accurate and consistent data collection and inventory control, in FY
       08, USAID is assisting the NMCP, Pharmacy Division and the resource centre of
       the MOH to develop a pharmaceutical management information system complete
       with guidelines and data collection tools by the end of September 2008.
       Automation will be done where appropriate. However, implementation for this
       year will only be done in districts where USAID supported the implementation of
       MTP due to funds limitation.

As described above, USAID has already planned and implemented systems for
adequate control of PMI procured commodities. This recommendation should now be
closed (through APC).




                                                                                        29
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
